   March 26, 2004




Financial Management
Controls Over U.S. Army Corps of
Engineers Buildings and Other
Structures (D-2004-063)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

CEFMS                Corps of Engineers Financial Management System
COEMIS               Corps of Engineers Management Information System
GAAP                 Generally Accepted Accounting Principles
GAO                  General Accounting Office
PP&E                 Property, Plant, and Equipment
REMIS                Real Estate Management Information System
RPAO                 Real Property Accountable Officer
SFFAS                Statement of Federal Financial Accounting Standards
USACE                U.S. Army Corps of Engineers
USD(C)/CFO           Under Secretary of Defense (Comptroller)/Chief Financial Officer
          Office of the Inspector General of the Department of Defense
Report No. D-2004-063                                                       March 26, 2004
   (Project No. D2003FI-0044)

                 Controls Over U.S. Army Corps of Engineers
                       Buildings and Other Structures

                                 Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers personnel
responsible for the financial reporting and accountability of buildings and other structures
should read this report about controls needed to support the financial reporting of
buildings and other structures.

Background. The audit was performed in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-356, the “Federal Financial Management Act of 1994,” October 13, 1994. The
Inspector General of the Department of Defense is required to audit the annual financial
statements of DoD activities. This report is a result of work performed in support of
agreed-upon procedures to establish beginning balances for the audit of the U.S. Army
Corps of Engineers Civil Works FY 2003 Financial Statements.

General Property, Plant, and Equipment was the largest category of assets reported on the
U.S. Army Corps of Engineers Civil Works FY 2002 Financial Statements. Buildings
and other structures comprised $18.0 billion of the $36.9 billion reported as General
Property, Plant, and Equipment. Between October 1, 1999, and September 30, 2002, the
net book cost of buildings and other structures increased by about $610.2 million.
Buildings and other structures include all buildings, structures, and other facilities affixed
to U.S. Army Corps of Engineers land in the continental United States, Alaska, and
Hawaii.

Results. Sufficient controls were not in place to ensure that 95 percent (5,470) of the
5,758 buildings and other structures, with a change made to book cost between October
1, 1999, and September 30, 2002, were valued correctly on the U.S. Army Corps of
Engineers Civil Works FY 2002 Financial Statements. Specifically, the placed-in-service
and retirement dates were often unsupported or improperly established in the Corps of
Engineers Financial Management System, “useful life” of the buildings and other
structures was not always established in accordance with Engineer Regulation 37-2-10,
“Financial Administration – Accounting and Reporting, Civil Works Activities,” and
book costs of buildings and other structures were frequently not supported by sufficient
third party documents. As a result, the U.S. Army Corps of Engineers has a high-risk
control environment that may result in a material misstatement of the Civil Works
financial statements. Standardized procedures for documenting and reporting financial
events affecting the valuation of U.S. Army Corps of Engineers buildings and other
structures, along with training U.S. Army Corps of Engineers personnel to follow the
procedures, are critical to providing timely, accurate data for financial statements
(finding A).
The U.S. Army Corps of Engineers established a zero-dollar capitalization threshold for
buildings and other structures that was unreasonably low and did not comply with DoD
policy. The low dollar threshold created an unnecessary and costly workload at district
offices and contributed to weaknesses in the controls over buildings and other structures.
The U.S. Army Corps of Engineers decision on August 12, 2003, to increase the
capitalization threshold to $25,000 for buildings and other structures needs to be
supported by a detailed cost analysis, and must be approved by the Under Secretary of
Defense (Comptroller)/Chief Financial Officer. The U.S. Army Corps of Engineers
should also update policy guidance for implementing the new capitalization threshold
and ensure that the assets removed from financial accountability were properly valued
(finding B).

Controls at district offices did not ensure that computer data systems access was properly
controlled, and that information in the systems was complete and accurate. As a result,
the amounts recorded for buildings and other structures in the U.S. Army Corps of
Engineers Civil Works FY 2002 Financial Statements were misstated. In addition, the
U.S. Army Corps of Engineers had limited assurance that buildings and other structures
would be fairly stated in the FY 2003 financial statements. The U.S. Army Corps of
Engineers should review systems access, perform and resolve problems identified during
physical inventories, implement proper fiscal year closeout procedures, and standardize
methods for classifying and recording buildings and other structures (finding C). See the
Findings section for the detailed recommendations.

Management Actions and Comments. During the audit, the U.S. Army Corps of
Engineers reemphasized and clarified some of its policies and increased the capitalization
threshold for buildings and other structures (see findings A and B for a complete
discussion of the management actions). In comments on this report, the Commander of
the U.S. Army Corps of Engineers concurred with all of the findings and
recommendations and agreed to implement all of the recommendations.




                                            ii
Table of Contents

Executive Summary                                       i

Background                                              1

Objective                                               2

Findings
     A. Controls Over Buildings and Other Structures    3
     B. Capitalization Threshold                       14
     C. Other Control Issues                           19

Appendixes
     A. Scope and Methodology                          28
          Management Control Program Review            29
          Prior Coverage                               30
     B. Glossary                                       31
     C. Accounting Guidance for Real Property Assets   32
     D. Statistical Sampling Methodology               35
     E. Buildings and Other Structures Cycle           37
     F. Report Distribution                            41

Management Comments
     U. S. Army Corps of Engineers                     43
Background
         The audit was performed in support of Public Law 101-576, the “Chief Financial
         Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
         the “Federal Financial Management Act of 1994,” October 13, 1994. The U.S.
         Army Corps of Engineers (USACE) Civil Works reports General Property, Plant,
         and Equipment (PP&E) as an asset line item on the balance sheet. For FY 2002,
         the net book value of PP&E was $36.9 billion. Buildings and other structures1
         comprised $18.0 billion of the total PP&E. The net book value represents the
         difference between the historical book cost and the accumulated depreciation of
         the assets. As of September 30, 2002, USACE had about 57,500 structures
         located in the continental United States, Alaska, and Hawaii. See Appendix B for
         a glossary of terms used throughout the report.

         Generally Accepted Accounting Principles (GAAP). GAAP requires that
         expenses be recorded in the same accounting period as the revenue they helped to
         earn. GAAP further states that structures should be recorded at acquisition cost,
         including all costs necessary to bring the asset to its location in working
         condition. That cost, less salvage value, should be depreciated over the estimated
         useful life of the structure. Structures approved for disposal should be
         reclassified in general ledger accounts and reported at the lower of their book
         value or fair market value, less costs to sell.

         Accounting for Property, Plant, and Equipment. Statement of Federal
         Financial Accounting Standards (SFFAS) No. 6, “Accounting for Property, Plant,
         and Equipment,” June 1996, contains accounting standards for federally owned
         PP&E. DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
         volume 4, “Accounting Policies and Procedures,” chapter 6, “Property, Plant and
         Equipment,” August 2000, provides the DoD accounting policies for PP&E. See
         Appendix C for detailed accounting guidance related to structures.

         The Period Under Review. USACE has long-standing issues related to the
         proper reporting of structures. Specifically, USACE has been unable to provide
         adequate independent documentation to support the recorded book cost of
         structures that were placed in service prior to the implementation of the Corps of
         Engineers Financial Management System (CEFMS). We held a meeting with the
         General Accounting Office (GAO) on November 1, 2002, to discuss an approach
         for reviewing and accepting the support for the recorded book costs for USACE
         structures. The GAO agreed that internally-generated documentation would be
         acceptable support for structures provided that CEFMS could accurately and
         consistently capture, track, and report the post-FY 1998 additions, deletions, and
         other changes to the structures accounts. However, USACE could not support the
         trial balance for structures as of September 30, 1998, because CEFMS was not
         fully implemented at all USACE districts until the end of FY 1999. In
         February 2003, after consulting GAO and reconciling the trial balances for



1
 In this report, the term “structures” implies inclusion of “buildings and other structures,” unless otherwise
specified.



                                                      1
    structures with detailed CEFMS information, we modified our audit scope and
    began reviewing changes made to structures since October 1, 1999. Some of the
    changes affected structures that were placed in service before October 1, 1999.


Objective
    Our audit objective was to determine whether proper controls were in place to
    ensure the reliability of changes made to the USACE Civil Works structures
    accounts during FYs 2000 through 2002. USACE was unable to provide audit-
    ready evidential matter in time for us to complete the audit of the USACE Civil
    Works FY 2002 Financial Statements. Therefore, we continued the audit in
    accordance with agreed-upon procedures to try to establish beginning balances for
    the FY 2003 financial statements. See Appendix A for a discussion of the scope
    and methodology, our review of the management control program, and prior
    coverage related to the objective.




                                        2
           A. Controls Over Buildings and Other
              Structures
           Sufficient controls were not in place to ensure that 5,470 of the
           5,758 (95 percent) buildings and other structures, with a change made to
           book cost between October 1, 1999, and September 30, 2002, were valued
           correctly on the U.S. Army Corps of Engineers Civil Works FY 2002
           Financial Statements. Specifically:

               •   the placed-in-service and retirement dates were often unsupported
                   or improperly established in CEFMS,

               •   useful lives were not always established in accordance with
                   Engineer Regulation 37-2-10, and

               •   the book cost of structures was frequently not supported by
                   sufficient third party documents.

           Controls were weak because USACE guidance was not consistently
           implemented and strictly enforced. As a result, USACE has a high-risk
           control environment that may result in a material misstatement of the Civil
           Works financial statements.


Control Environment
    A good control environment ensures that all real property is properly identified,
    documented, and accurately recorded in the accounting and property systems over
    the useful lives of the assets. Establishing accurate and supportable balances for
    structures in CEFMS requires that:

           •   the date the building or other structure is placed in service is supported
               by documentation identifying the date the asset was completed and
               ready for use;

           •   the prescribed useful life over which the economic benefit of the asset
               is realized is consistently established;

           •   the costs to acquire and bring an asset to the condition required for
               USACE use are identified, fully documented, and maintained; and

           •   the date the building or other structure is retired is based on the date of
               proper approval of the retirement actions.

    USACE established guidance in several of its regulations for districts and field
    sites to use in controlling and maintaining accurate balances in CEFMS.
    Accounting guidance for real property assets is contained in Appendix C.




                                          3
Sample Methodology
            Sample Selection. A statistical sample was performed to determine whether
            sufficient controls were in place and operating to capture, track, and maintain the
            CEFMS balances for structures. We obtained a population of 5,758 structures,
            with a book cost of $8.7 billion, that had a change made to recorded book cost
            between October 1, 1999, and September 30, 2002. Each building and structure
            was identified in the population using a distinct property identification code.
            From this population, we selected a sample to test whether specific controls were
            in place and operating for 80 property identification codes. See Appendix D for
            the statistical sampling methodology.

            Controls Tested. To determine which controls to test, we categorized the sample
            items as either an addition2 or a deletion.3 For the 50 property identification codes
            classified as additions, we performed tests to determine whether USACE had
            controls in place to establish the correct placed-in-service date, useful life, and
            book cost. We performed the following tests.

                •    We tested whether a properly completed and approved Engineer
                     Form 3013, “Work Order/Completion Report,” existed and supported the
                     placed-in-service date recorded in CEFMS. We also tested whether the
                     date of completion on the Engineer Form 30134 was supported by the
                     corresponding financial transactions in CEFMS.

                •    We tested whether the established useful life complied with USACE
                     guidance in Engineer Regulation 37-2-10.

                •    We tested whether the book cost reflected all appropriate costs expended
                     to bring the asset into service. We also determined whether the costs were
                     supported by source documentation. To test this, we reviewed the detailed
                     cost ledgers to assess whether all costs appeared to be captured.

            For the 30 property identification codes categorized as deletions, we assessed
            whether the proper retirement date was established in CEFMS. We determined
            whether documentation existed to support a determination that the asset no longer
            served a useful purpose to USACE, and should be retired. We also determined
            whether an authorized official approved the decision, and whether the retirement
            date in CEFMS matched the approval date.




2
 Establishment of a new property identification code in CEFMS, or an existing property identification code
that had an increase in book cost.
3
 Property identification codes that had a reduction in book cost, including those that were retired from
service.
4
    A reference to the Engineer Form 3013 includes the actual form and any district office equivalents.

                                                        4
Sample Results
    Overall, we are 90 percent confident that for a number of structures, between
    5,204 and 5,736, USACE had inadequate controls in place to ensure that the data
    recorded in CEFMS were accurate. Specifically, we are 90 percent confident that
    USACE failed to properly support:

       •   the placed-in-service date recorded in CEFMS for between 2,679 and
           3,799 structures,

       •   the useful life recorded in CEFMS for between 393 and 1,190 structures,

       •   the book cost recorded in CEFMS for between 2,244 and 3,370 structures,
           and

       •   the retirement date recorded in CEFMS for between 1,475 and
           2,555 structures.

    Some sample items failed more than one control test. See Appendix D, Table D,
    for additional details on the sampling results.

    Placed-in-Service Date. Controls were not in place to ensure that the date an
    asset was placed in service in CEFMS accurately reflected the date the building or
    other structure was completed and available for use. USACE had policies on how
    to place structures in service. Engineer Regulation 37-2-10 required that field site
    personnel provide the district offices with an Engineer Form 3013 to use as the
    control document for identifying the date the asset was physically completed and
    available for use. Structures (including any improvements) need to be placed in
    service on the proper dates, so that they can be properly depreciated over their
    useful lives. Personnel placing an asset in service should ensure that the
    completion date entered on the Engineer Form 3013 accurately reflects the date
    the asset is physically completed and available for use. If they determine that the
    date is incorrect, they should annotate the correct date on the Engineer Form
    3013, indicate that they made the change, and enter the date in CEFMS.

            Results of Control Testing. The sample identified that an incorrect
    placed-in-service date had been entered in CEFMS for 45 property identification
    codes. When the 45 control failures are projected over the entire population,
    3,239 structures were placed in service with an incorrect placed-in-service date.
    Appendix D gives details of the sample projections; again, some sample items
    failed more than one control test. The control testing performed on the 50 sample
    items showed that:

           •   An Engineer Form 3013 was not available for 14 items. An additional
               2 items had an Engineer Form 3013 that did not contain proper
               signatures.

           •   District personnel did not use the date of completion on the Engineer
               Form 3013 as the placed-in-service date in CEFMS for 30 items.



                                         5
       •   For 27 sample items, the date in CEFMS was not consistent with the
           dates of the final financial transactions.

The Engineer Form 3013 was not properly used as a control document for placing
all structures in service. This often occurred when the district identified a
structure during inventories and district personnel attempted to track down and
identify the source documentation needed to place the assets in service, or to
determine the fair market value of structures found at the field sites (commonly
referred to as a Found on Works asset). In other instances, district personnel
incorrectly used the date they processed the Engineer Form 3013 into CEFMS as
the placed-in-service date. We observed that district personnel performed only
limited reviews to ensure that the date of completion on the Engineer Form 3013
was supportable by corresponding financial transactions.

According to DoD Regulation 7000.14-R, volume 4, chapter 6, depreciation
should start on the date the asset is received, as shown on the receiving document,
or the date the asset is physically completed and ready for use, regardless if the
asset is actually used. Engineer Regulation 37-2-10 states that real property
assets should be placed in service no later than the month after receipt of the
receiving report. Based on this guidance, we concluded that the placed-in-service
date of a structure should occur either when the asset is completed and ready for
use, or within 30 days after the final receiving report is dated or another relevant
financial transaction occurs, whichever is earlier.

                 Found on Works Assets. All 13 sample items that were identified
as “Found on Works” lacked documentation supporting how their placed-in-
service dates were established. USACE policy and a proposed update to Engineer
Regulation 405-1-12, “Real Estate Handbook,” require USACE real property
found on USACE property during inventories, but not recorded in CEFMS, to be
placed in service. However, USACE guidance did not require that an Engineer
Form 3013 be used to identify the placed-in-service date. The procedures used by
districts to place “Found on Works” assets in service differed between districts
and occasionally varied within a district itself. For example, the Tulsa District,
Tulsa, Oklahoma, had a Quonset hut that was found at Fort Gibson, Oklahoma on
January 12, 2000. District personnel used the day the asset was found as the
placed-in-service date. In other cases, districts placed assets in service on the
assumed construction date. District personnel should have assessed the age and
fair market value of the assets at the time of discovery and documented their
determination on an Engineer Form 3013. An Engineer Form 3013 should
document both the date the asset was discovered and the date it should be placed
in service.

                Dates of Completion. District personnel responsible for placing
assets in service did not always use the date of completion on the Engineer
Form 3013 as the placed-in-service date in CEFMS. Instead, district personnel
used the date the authorized individual signed the Engineer Form 3013 or the date
the asset was created in CEFMS as the placed-in-service date. Engineer
Regulation 37-2-10, chapter 6, requires that the date of actual completion of an
asset be provided to the resource management office. District personnel did not
follow established guidance because they were inadequately trained and did not
understand the requirement, or were careless in entering dates of completion in

                                     6
CEFMS. Further, USACE had no enforcement mechanism in place to ensure that
established procedures were followed.

                Final Receiving Reports. District personnel did not routinely
check the reasonableness of the completion date on the Engineer Form 3013 to
ensure that the proper placed-in-service date was recorded in CEFMS. For
28 sample items, the final receiving report or another related financial transaction
was dated from 2 to 634 months before the asset was placed in service. District
personnel did not check to ensure that the dates of completion, provided to them
for entry of new structures in CEFMS, accurately reflected the completion dates
of construction of the structures. A simple check, made by the resource
management office, of the date of the last receiving report or other related
financial transaction (such as labor charges) would determine if the date of
completion closely matched (within 1 month) the transaction date. Upon
determining that the date of completion is not reasonable, the individual placing
the hypothetical structure in service should annotate on the Engineer Form 3013
the correct date and the reason for the change.

        Conclusion. Procedures must be in place to ensure that the date an asset
is placed in service reflects the date a building or other structure was physically
completed and ready for use. USACE should use the Engineer Form 3013 as a
control document for all assets placed in service including those “Found on
Works.” USACE should develop procedures to establish and enforce a
requirement to validate the dates provided for placing assets in service. An
inaccurate placed-in-service date may cause a misstatement in the depreciation
charged.

Useful Life. Controls were not in place to ensure that the useful life of an asset
was established in CEFMS according to USACE policy. Structures, and related
improvements to them, should be depreciated if they have a useful life of 2 years
or greater. Engineer Regulation 37-2-10 provided guidance on establishing the
useful life for various USACE assets, including structures. However, the
guidance was not always followed, was subject to misinterpretation, and was
inconsistent with DoD policy. The sample identified that adequate controls were
not in place to ensure that the proper useful life was established in CEFMS for
11 sample items. When the 11 control failures are projected over the entire
population, 792 structures were placed in service with a useful life that was
established differently from Engineer Regulation 37-2-10. Inspector General of
the Department of Defense Report No. D-2004-059, “Assets Depreciation
Reported on the U.S. Army Corps of Engineers FY 2002 Financial Statements,”
March 16, 2004, discusses issues related to the USACE useful life policy.

Book Cost. Controls were not in place to ensure that the book costs of buildings
and other structures were accurately established in CEFMS and supported with
appropriate source documentation. In order to accurately report the value of
buildings and other structures in the USACE Civil Works financial statements,
assets must be recorded at full cost which includes all costs incurred to bring the
asset to a form and location suitable for its intended use.

Results of Control Testing. Of the 50 property identification codes we tested for
proper asset valuation and supporting source documentation, we found that 39 did


                                      7
not have source documentation supporting the recorded book costs in CEFMS.
When the 39 control failures are projected across the population, 2,807 structures
were placed in service with improper or unsupported book costs.

Documentation Supporting the Recorded Book Cost. Documentation was not
available to support the book cost of most sample items. District personnel could
not provide adequate third party documentation to support the recorded book cost
of 39 of the 50 sample items. Thirteen sample items classified as Found on
Works had little or no documentation supporting how the recorded book costs
were determined. For the other 26 sample items, independent source
documentation (for instance, invoices, Visa bills, Engineer Form 93) was found
for only a portion of the total book cost. Further, we found no consistency in
where the documentation supporting the book cost of an asset was maintained.
Some districts maintained documentation in files at the district office, while other
districts allowed field sites to maintain the documentation. The Mobile District,
Mobile, Alabama, used a scanning system that provided an excellent tool to
systematically maintain and view documentation supporting the district’s
structures.

         Capturing Appropriate Costs. Limited procedures were in place to
ensure that all costs, as specified in SFFAS No. 6, associated with bringing an
asset into service were captured before placing the assets in service. None of the
23 districts we visited used a checklist or other method to ensure that all costs
associated with placing an asset in service were recorded in CEFMS. Therefore,
districts had limited assurance that all costs were captured prior to placing an
asset in service. For example, one sample item in the Rock Island District had
costs recorded in CEFMS to support the materials purchased for constructing the
structure, but did not include labor or other equipment charges needed to
construct the structure. At the New Orleans District, New Orleans, Louisiana, the
material line of a contract was capitalized as part of the book cost, but the related
installation costs were expensed and not included as part of the book cost. In
each case, the book cost of the asset was understated. A checklist or other control
mechanism should be developed and used to ensure that all costs, as detailed in
SFFAS No. 6, have been identified and reported as part of the book cost.

         Valuation of Found on Works Assets. Standard procedures were not in
place on how to determine and document the fair market value of Found on
Works assets. District procedures varied. Some districts used appraisers to assess
the fair market value of the Found on Works assets. Other districts relied on lake
and site managers to provide a best guess of the value of the structures. We
concluded that the valuation of Found on Works assets should depend on when
the asset was acquired or constructed.

               Pre-Conversion. For assets that existed when USACE converted
from the Corps of Engineers Management Information System (COEMIS) to
CEFMS, the value of the Found on Works assets should have been part of the
value established previously for converted assets. A reassessment of those values
may be required. For example at John Martin Reservoir, Colorado, the district
discovered 14 campsites that should have been part of the original conversion.
The district managers reassessed the book cost of 61 existing assets in order to
create a book cost for the 14 discovered campsites. Although this reassessment

                                      8
appeared appropriate, documentation was not available to show how district
personnel determined the book costs for either the 61 existing assets or the
14 campsites until after our visit. Conversely, at other districts, appraisers
assessed the fair market value of Found on Works assets and placed them in
service without considering whether the assets should have been part of the value
established for the converted assets. Therefore, the book cost of total assets may
be overstated because the historical cost of these Found on Works assets may
already have been erroneously allocated to other converted assets. Additionally,
the placed-in-service dates should be adjusted.

               Post-Conversion. For assets that did not exist at the time of the
conversion, an assessment should be made of the asset’s fair market value so that
it can be indexed to the date of original construction. The appraised value, less
any accumulated depreciation that should have been recorded to date, should be
depreciated over any remaining useful life. District personnel were not able to
provide us information or documentation for 13 Found on Works assets that
indicated a similar methodology was followed. Following our visit, Kansas City
District personnel developed a methodology for establishing and supporting the
book cost and book value of Found on Works assets.

        Review of Additional Costs. Additional costs were often inappropriately
added to the book cost of structures after they were placed in service. Each night,
USACE ran a CEFMS application titled “CRON” that capitalized any additional
costs recorded in the construction-in-progress accounts for asset work items that
had previously been placed in service. USACE had no procedures for conducting
a detailed review of these costs to ensure that:

   •   the costs were associated with the property identification code and
       required capitalization,

   •   proper source documentation was maintained for the additional capitalized
       costs, or

   •   the costs were not actually misclassified expenses.

Procedures for screening costs captured after an asset is placed in service are
necessary to ensure that documentation supports the decision to capitalize the
additional costs.

Conclusion. USACE policies must ensure that appropriate costs are captured and
capitalized and that independent source documentation is maintained for the life
of the building or structure. When the acquisition cost cannot be determined, a
method of establishing the fair market value must be used and properly
documented. Additional costs added to an asset after the placed-in-service date
must be screened for validity and proper support. A proposed update to Engineer
Regulation 405-1-12, would require consistent procedures for district offices to
maintain documentation supporting USACE assets. The regulation should




                                     9
include procedures for ensuring the proper placed-in-service dates and book costs
for Found on Works assets. USACE should also centrally maintain the
documentation that supports the recorded book costs of structures.

Retirement Date. Controls were not in place to ensure that the date an asset was
retired from service in CEFMS accurately reflected the date the building or other
structure was approved for disposal. Twenty-eight of the 30 property
identification codes we tested for proper controls over establishing the retirement
date had an incorrect retirement date in CEFMS. District offices did not have
adequate controls for ensuring that the retirement date in CEFMS accurately
reflected the approved date for disposal actions. When the 28 control failures are
projected across the population, 2,015 structures were retired in CEFMS
improperly.

        Results of Control Testing. USACE had issued policy on how to retire
structures. The policy required that the district personnel approve requests for
disposal actions before retiring assets from service. The retirement process is
described in Appendix E. The control testing performed on the 30 sample items,
some of which failed more than one control test, showed that:

           •   4 items had no documentation available that identified the date the
               asset was approved for disposal,

           •   10 items had no signature or evidence of approval by an authorized
               official, and

           •   21 items had the date of approval and the date of retirement in
               CEFMS in a different accounting period.

         District Procedures. Standard procedures on how to accomplish and
document the retirement of structures had not been implemented at the 23 district
offices we visited. Visits to the Savannah District, Savannah, Georgia, and
Fort Worth District, Fort Worth, Texas, identified structures that were
demolished, destroyed, or disposed of without first gaining prior approval from
the district office. At districts, including the Kansas City and Mobile Districts,
the retirement and disposal actions in CEFMS occurred simultaneously and only
after the disposal of the asset had actually occurred. In addition, districts did not
consistently document how the retirement dates were established. Some districts,
such as St. Louis District, St. Louis, Missouri, and Tulsa District, had detailed
procedures that required an approved “finding of fact” be prepared by the real
estate division before retiring the asset. The New England District, Concord,
Massachusetts, stated that disposal procedures within the district did not exist.
Further, district approvals of disposition actions did not always occur timely.

For example, a field activity in the St. Louis District requested disposal of an
asset on May 10, 1999, but the district office did not provide approval until
September 2000, more than 1 year later. Discussions with district personnel
identified that CEFMS did not permit them to enter the actual retirement date of a
building or other structure in CEFMS. CEFMS only allowed them to place the
current transaction date in the system. Consequently, structures remained in
CEFMS and were depreciated long after the building or other structure ceased

                                     10
     providing a useful service. We identified this issue to CEFMS systems personnel
     who implemented a system change in July 2003 that allows for the entry of the
     actual retirement date.

             Conclusion. Enforceable procedures must be in place to ensure that field
     activities promptly identify structures that require disposal to the district real
     estate office. Based on this notification, district personnel need to take timely
     actions to assess whether disposal actions are required, and grant approval for
     field activities to take necessary actions. The request for disposal and its approval
     should be documented. When approval is granted, the building or other structure
     should be immediately retired in CEFMS and, once final disposal actions occur,
     the disposal can be recorded in CEFMS.


Corrective Actions
     USACE reemphasized and clarified some of its policies regarding structures in a
     series of updates to information papers it originally issued in June 2003. A
     proposed update to Engineer Regulation 405-1-12 provides additional detailed
     guidance. However, more needs to be done to ensure consistency in establishing
     placed-in-service dates, retaining supporting documentation, and assessing the
     value of Found on Works assets.


Summary
     USACE had issued guidance on how to place buildings or other structures in
     service, establish their useful life, capture and document their book cost, and
     retire them from service. However, the procedures were inconsistently followed
     at district offices and some policy issues needed to be addressed. The control
     environment at USACE district offices did not ensure that pertinent financial
     information about the structures could be properly supported and recorded
     accurately in CEFMS. Controls over the reliability of financial reporting and
     compliance with applicable guidance did not provide reasonable assurance that
     misstatements or noncompliance—material in relation to the financial
     statements—would be prevented or detected. USACE needs to evaluate, update,
     and consolidate its policies on managing structures to provide consistent
     accounting procedures for use throughout USACE. Once implemented,
     appropriate training and enforcement is necessary to provide for an adequate
     control environment.




                                          11
Recommendations and Management Comments
    A. We recommend that the Chief of Engineers, U.S. Army Corps of
    Engineers:

           1. Evaluate, update, and consolidate policies for managing
    U.S. Army Corps of Engineers buildings and other structures. Include them
    in Engineer Regulation 405-1-12, Real Estate Handbook, or develop a
    separate Engineer Regulation that would be used to enforce standardized
    procedures for:

                    a. Preparing and processing accurate Engineer Form 3013s to
    support the placed-in-service dates of all new buildings and other structures,
    and significant improvements to them. Emphasize the need for field
    activities to provide an accurate date of completion that corresponds to the
    actual date the building or other structure was physically completed.

                 b. Validating the date of completion of assets to ensure the
    proper placed-in-service date is established in the Corps of Engineers
    Financial Management System.

               c. Establishing placed-in-service dates for assets that are
    Found on Works.

                   d. Identifying, capturing, and centrally maintaining the
    source documentation (third party and internal) required to support the
    book cost of the buildings and other structures.

                  e. Developing a checklist to ensure all costs specified in
    Statement of Federal Financial Accounting Standards No. 6, that are
    associated with bringing assets into service, are captured.

                   f. Reviewing costs that were added to the book cost of the
    asset after the placed-in-service date to ensure that documentation supports
    the decision to capitalize the additional costs.

                  g. Obtaining and documenting disposition approval and
    disposal actions.

    Management Comments. The Commander of USACE concurred and stated that
    policies and standard procedures for managing buildings and other structures will
    be updated and consolidated in Engineer Regulation 405-1-12, Real Estate
    Handbook. The Commander stated that USACE intends to issue the revision to
    Engineer Regulation 405-1-12 in early FY 2004 as an Engineer Circular for
    1 year. As the district offices use it, their comments and suggestions for
    improvements will be evaluated for possible incorporation in Engineer Regulation
    405-1-12. USACE also plans to develop a new CEFMS report that will provide
    asset managers with the capability to review all costs that have been added to the
    asset’s book cost after the placed-in-service date.


                                        12
      2. Develop and document an appropriate training program that
provides district personnel with an understanding of their current asset
management responsibilities.

Management Comments. The Commander of USACE concurred and stated that
he will direct Regional Business Centers to develop and document a training
program to provide district personnel with an understanding of their asset
management responsibilities.

       3. Perform periodic reviews to ensure that districts enforce the
management controls for establishing and maintaining proper data for
buildings and other structures in the Corps of Engineers Financial
Management System.

Management Comments. The Commander of USACE concurred and stated that
the interim update to Engineer Regulation 405-1-12 will require Regional
Business Centers to perform and document periodic reviews to ensure that
districts enforce management controls for establishing and maintaining proper
data for buildings and other structures in CEFMS.

       4. Develop a plan for centrally maintaining all third party
documentation needed to support the recorded book costs of buildings and
other structures. Examine the potential for implementing scanning
technology.

Management Comments. The Commander of USACE concurred and stated that
Regional Business Centers will be responsible for developing a regional plan for
their districts to centrally maintain third party documentation needed to support
the recorded book costs of buildings and other structures. The Internal Review
Office will validate the existence of the regional plans.

       5. Develop a standard methodology and documentation requirement
for assessing the fair market value of assets that are placed in service as
Found on Works assets.

Management Comments. The Commander of USACE concurred and stated that
the USACE Chief Appraiser will work with district appraisers to develop
standard methodology and documentation for assessing the fair market value of
assets that are placed in service as Found on Works assets.




                                   13
            B. Capitalization Threshold
            USACE established a zero-dollar capitalization threshold for buildings
            and other structures. The threshold was unreasonably low and did not
            comply with DoD policy. USACE established the zero-dollar
            capitalization threshold because it believed that Civil Works structures did
            not need to comply with DoD policy, and compliance with the DoD policy
            would cause an unnecessary expense to some of its customers. The low
            dollar threshold created an unnecessary and costly workload at district
            offices, and contributed to weaknesses in the controls over structures
            accounts.


Criteria
     SFFAS No. 6 allows each Federal entity to establish a capitalization threshold. In
     March 1998, the Under Secretary of Defense (Comptroller)/Chief Financial
     Officer (USD[C]/CFO) issued a memorandum on DoD policy for capitalizing real
     property (excluding land) and set the dollar threshold at $100,000. Beginning
     September 21, 1998, USACE undertook an effort to obtain a waiver from this
     policy for its Civil Works real property assets. A business study dated April 25,
     2000, determined that increasing the threshold to $100,000 would impact the
     projects and customers, be inconsistent with like entities, and impact structures at
     locations with Power Marketing Agency assets regulated by the Federal Energy
     Regulatory Commission. Although a request for waiver was submitted to the
     USD(C)/CFO, the waiver was never approved. Appendix C identifies accounting
     guidance for real property assets, including the establishment of a capitalization
     threshold.


Capitalization of Buildings and Other Structures
     Without the approval of the USD(C)/CFO, USACE established a zero-dollar
     capitalization threshold for all Civil Works structures. USACE districts were
     required to capitalize each new building and structure as well as all changes to
     them. Although the DoD threshold of $100,000 may be too high and would
     potentially misstate the USACE financial statements, establishment of the zero-
     dollar threshold adversely impacted district operations and weakened controls.
     USACE should perform a detailed cost analysis to select the best dollar threshold
     for use in reporting Civil Works assets, and obtain a written waiver to DoD
     policy.

     Problems With the Zero-Dollar Threshold. The need to identify, classify, and
     capitalize every building and other structure, and any changes made to them,
     placed a burden on personnel at the USACE district and field offices.
     Inconsistencies also existed in which items located on USACE property should be
     classified as a separate building or structure, and capitalized. These situations


                                          14
created a number of unreported assets, complicated the control environment, and
increased the potential that structures would not be properly accounted for in
CEFMS.

        Capturing Low-Dollar Items. USACE personnel at the 23 district
offices and 22 field sites we visited experienced significant workload related to
capitalizing and accounting for low-dollar structures. Because every new
building and other structure, and every improvement to an existing building or
other structure, should have been capitalized according to USACE policy; district
personnel often depended on operations personnel at lakes and other properties to
identify and provide the required source documentation. When site managers
made low-dollar additions or improvements to their property, they either failed to
complete, or did not identify the need to complete and maintain, an Engineer
Form 3013, “Work Order/Completion Report,” and other required documentation.

        Consistency in the Capitalization of Structures. USACE districts were
not consistently identifying and capitalizing low-dollar project items as buildings
or other structures. We identified inconsistencies in how districts capitalized
structures at recreational areas. For example, at Saylorville Lake, Iowa, the
Rock Island District, Rock Island, Illinois, created a detailed inventory of every
item attached to the land, including sign boards, guard rails, fire grills and water
spigots. The district capitalized each as an individual building or other structure.
At lakes in other districts, similar items were not separately capitalized.
Establishing a higher dollar threshold would eliminate the need to identify,
capitalize, and track all the changes made to individual recreation areas. USACE
could then develop consistent procedures for capitalizing assets. Finding C
identifies additional problems in classifying structures.

        Improving Controls. Increasing the capitalization threshold would likely
result in an improvement in controls over structures The current environment
required a significant amount of source documentation to be maintained for a
large number of assets that did not materially affect the financial statements. The
amount of paperwork and time expended by USACE personnel would be reduced
by not having to place in service, manage, and ultimately retire thousands of
individual structures in CEFMS. Reduction in paperwork and time expended
would permit district personnel to better enforce controls over structures that
materially affect the balance sheet.

FY 2002 Buildings and Other Structures Breakout. The USACE
capitalization policy required that 57,534 unique structures with a useful life of
2 or more years be recorded in CEFMS. As of September 30, 2002, CEFMS
identified that these structures had a total book cost of about $30.5 billion and
book value of about $18.0 billion. Our analysis showed that that even an increase
in the capitalization threshold to $5,000 would result in a significant number of
individual buildings and other structures that would no longer need to be recorded
and tracked in CEFMS. Table 1 relates the number of structures and the
associated book cost and book value that could be excluded if one of four
different capitalization thresholds were implemented.




                                     15
 Table 1. Effect of Using Different Capitalization Thresholds
                   Number of
 Threshold         Properties                   Book Cost                    Book Value
 (less than               Percent           Dollars   Percent            Dollars    Percent
     or         Quantity of Total          (millions) of Total          (millions) of Total
 equal to)
 $ 5,0001          15,482          26.9      $    35.3           0.1     $   16.7            0.1
 $ 25,0002         31,627          55.0      $ 242.6             0.8     $ 120.5             0.7
 $100,0003         45,374          78.9      $ 971.4             3.2     $ 474.3             2.6
 $250,000   4
                   50,622          88.0      $1,797.5            5.9     $ 905.3             5.0

 1
  This threshold represents the DoD accountability threshold.
 2
  This threshold represents the current capitalization threshold for USACE personal property and
   the threshold used to capitalize real property at the Tennessee Valley Authority and
   Department of Energy.
 3
  This threshold represents the current DoD capitalization threshold.
 4
  This threshold represents the expense investment threshold.

Implementation of the current DoD capitalization threshold of $100,000, would
cause USACE to exclude 78.9 percent of the individual structures and 2.6 percent
of the total book value reported in CEFMS as of September 30, 2002. However,
excluding this much of the General PP&E could materially misstate the USACE
balance sheet. Using the DoD capitalization threshold could also significantly
impact the USACE hydropower customers by not identifying a material portion of
the costs needed in establishing rates. Increasing the capitalization threshold to
an amount anywhere from $5,000 to $25,000 would be more cost-effective and
easier for the district personnel to track without materially misstating the financial
statements.

Establishing a Cost-Effective Capitalization Threshold. USACE needed to
determine whether its policy of capitalizing all structures ensured the most
cost-effective method of capturing the structures that materially impact the
USACE financial statements. A detailed cost analysis would determine at what
dollar threshold it becomes most cost-effective and least time consuming for
district personnel to capture, track, and maintain individual assets without
materially affecting the USACE balance sheet. Once this threshold is determined,
Engineer Regulation 37-1-29, “Financial Administration – Financial Management
and Capital Investment,” November 30, 2002, and other appropriate Engineer
Regulations should be updated to provide USACE districts with policy guidance
on capitalizing future assets and improvements to existing assets. Further
USACE must obtain and document a waiver from the USD(C)/CFO, adjust
CEFMS, and disclose the change in capitalization policy in the FY 2003 financial
statements.

                                           16
Corrective Actions
        Based on our discussions with USACE personnel, USACE raised the dollar
        threshold for most Civil Works structures to $25,000. On August 12, 2003, the
        USACE Director of Resource Management issued a corps-wide memorandum
        that increased the threshold for all Civil Works appropriation structures to
        $25,000, except for revolving fund and Power Marketing Agency assets.5 It
        directed that all structures that had a book cost valued at less than the new
        threshold be expensed within FY 2003 and be removed from CEFMS. On
        August 22, 2003, the CEFMS Development Team in Huntsville, Alabama,
        developed a computer program that identified 17,760 structures, with a book
        value of $63.3 million, that were removed from CEFMS and expensed. However,
        USACE took these actions without first ensuring that the recorded book cost for
        each of the targeted structures had been accurately established in CEFMS.
        Control weaknesses discussed in findings A and C indicate that the book cost of
        the structures removed from CEFMS may not have been properly valued and
        classified in CEFMS. District personnel should be directed to review the items
        being removed from CEFMS, and ensure that they were originally established at
        the correct book cost.


Conclusion
        Capitalization threshold policies should ensure that appropriate costs are
        capitalized and allocated to the periods benefiting from the use of the structures.
        However, excessively low capitalization thresholds that overburden the entity
        should not be implemented if property accountability is maintained and the fair
        presentation of an entity’s financial position and results of operation are not
        jeopardized. Decisions as to the capitalization threshold level should be based on
        a detailed cost benefit analysis showing the impact at various dollar thresholds.
        Establishing new dollar thresholds requires each district to thoroughly research
        the items to be removed to ensure that the book cost has been properly established
        in CEFMS and falls below the new threshold. Further, USACE needs to fully
        document the study made to raise the threshold, provide detailed implementation
        guidance to district offices, and obtain documented approval from the
        USD(C)/CFO. USACE disclosed the impact of the threshold change in the
        FY 2003 financial statements.




5
 All structures acquired after September 30, 2003, with a book cost under $25,000, will be expensed with
the exception of Power Marketing Agency assets. All Power Marketing Agency assets will continue to be
capitalized.



                                                   17
Recommendations and Management Comments
    B. We recommend that the Chief of Engineers, U.S. Army Corps of
    Engineers:

       1. Perform and document a detailed cost analysis that supports the
    decision to raise the capitalization threshold for structures in the U.S. Army
    Corps of Engineers, Civil Works. Obtain documented approval from the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer for any
    threshold that varies from the DoD policy.

    Management Comments. The Commander of USACE concurred and stated that
    USACE has performed a detailed cost analysis and determined that the proper
    capitalization threshold for buildings and other structures for Civil Works and
    revolving funds assets is $25,000. He stated that USACE received verbal
    approval from the USD(C)/CFO and plans to request a formal waiver from the
    DoD capitalization policy.

       2. Direct the district offices to review the buildings and other structures
    removed from the Corps of Engineers Financial Management System as a
    result of implementing the $25,000 capitalization threshold, to ensure that
    they were properly valued. For assets that were undervalued or
    misclassified, that now meet the capitalization threshold; reestablish the asset
    with the proper book value in the Corps of Engineers Financial Management
    System.

    Management Comments. The Commander of USACE concurred and stated that
    the CEFMS Development Team provided each district with a report of all assets
    that were removed for review and corrective action as necessary.

       3. Update Engineer Regulation 37-1-29, “Financial Administration –
    Financial Management and Capital Investment,” and other appropriate
    Engineer Regulations to provide policy guidance for implementing the new
    capitalization threshold. Include detailed procedures for:

           a. Capitalizing all newly acquired and constructed buildings and
    other structures.

           b. Capitalizing future improvements to existing buildings and other
    structures.

    Management Comments. The Commander of USACE concurred and stated that
    USACE has issued procedures for implementing the new capitalization threshold.
    USACE will also update Engineer Regulation 37-1-30, Financial Administration
    – Accounting and Reporting,” September 30, 2002, to reflect the capitalization
    change.




                                       18
            C. Other Control Issues
            Controls at district offices did not ensure that computer data systems
            access was properly controlled, and that information in computer data
            systems was complete and accurate. This occurred because:

                •   computer data systems access was not periodically reviewed to
                    ensure proper segregation,

                •   districts did not always follow proper inventory procedures,

                •   district procedures were inconsistent and did not ensure
                    completeness of the building and other structure accounts,

                •   districts inconsistently established property identification codes,
                    and

                •   anomaly reviews and system reconciliations were not always
                    performed.

            As a result, the amount recorded for buildings and other structures in the
            USACE Civil Works FY 2002 Financial Statements was misstated. In
            addition, the USACE had limited assurance that buildings and other
            structures would be fairly stated in the Civil Works FY 2003 Financial
            Statements.


Criteria
     The General Accounting Office (GAO) publication GAO/AIMD-00-21.3.1,
     “Standards for Internal Control in the Federal Government,” November 1999,
     provides guidance related to establishment of sufficient internal control. This
     publication states that key duties and responsibilities need to be segregated among
     different people to reduce the risk of error or fraud. This includes separating the
     responsibilities for authorizing a transaction, processing and recording the
     transaction, and reviewing and accounting for the related assets.

     USACE uses the Real Estate Management Information System (REMIS) to
     provide accountability over structures, and CEFMS as its accounting system.
     Permissions are granted in CEFMS to allow users to make changes to an asset’s
     property phase code. The “asset manager authority” grants users permission to:

        •   reverse a previously recorded placed-in-service transaction,

        •   update the property phase of military or civil fixed assets,

        •   change the property identification code,

        •   activate a real property fixed asset into service,



                                          19
       •   activate an addition and betterment work item, and

       •   create or update transactions relating to loss or damages to fixed assets.

    USACE had an organizational structure that segregated duties between each
    district’s real estate and resource management offices. To place an asset in
    service and establish accountability, the Real Property Accountable Officer
    (RPAO) needed to enter the asset work item into REMIS, which assigned a
    property identification code and a corresponding structure number to the new
    structure. Once this property identification code was created, the resource
    management office could then place the structure in service in CEFMS, and
    transfer the costs associated with the asset work item to this property
    identification code. Administratively segregating the responsibilities ensures that
    the real estate office maintains responsibility for asset accountability, while the
    resource management office maintains the financial records.

    The performance of physical inventories allows a periodic verification that the
    amounts reported in the financial records accurately reflect the existence and
    condition of all real property assets and the financial records reflect the effects of
    financial transactions for the period. USACE regulations required that the district
    RPAOs perform physical inventories of all USACE real property at least once
    every three years, or when a change in an RPAO occurs. During the intervening
    years, a responsible employee (hand receipt holder appointed by the RPAO) at
    each project site should perform an annual review of structures and provide any
    changes, including all supporting documentation, to the RPAO to update the
    inventory records. Upon completion of an inventory, the RPAO, in conjunction
    with the district’s resource management office, must make any necessary
    corrections to the property identification codes, and provide a hand receipt to the
    responsible employee for verification and signature.


Asset Management Responsibilities
    An excessive number of individuals were granted asset manager authority in
    CEFMS. In addition, although district offices had administratively segregated
    management responsibilities for controlling structures, the corresponding system
    access controls did not maintain this segregation in the 23 districts reviewed.
    USACE had granted individuals the ability within both CEFMS and REMIS to
    create, update, and delete structures without intervention from another individual.

    CEFMS Access Authority. USACE districts had granted 1,823 individuals asset
    manager authority in CEFMS. The listing, dated May 19, 2003, showed that a
    large disparity existed in the number of individuals who were granted asset
    manager authority at each of the individual districts. The listing showed that the
    number of individuals who had been given this access ranged between 3 and
    105 individuals. Access was assigned to individuals in a wide variety of
    organizations within a district. Some district managers told us that individuals
    were granted access manager authority because they needed to view asset data in
    CEFMS. The asset manager authority permission was granted because “view
    only” permission did not exist.

                                         20
            In May 2003, based on our site visits and discussions with the CEFMS system
            personnel, a CEFMS system change was developed to permit individuals view
            only access to the CEFMS asset screens. USACE should promptly implement
            this system change and require that each district identify and remove the asset
            manager authority permission given individuals who are not required to update
            property phase codes or asset work items. The number of individuals with asset
            manager authority should be consistently established at USACE district offices.

            Dual System Access. District personnel who had been granted privileges in
            CEFMS to perform asset manager authority also had been granted the ability to
            update REMIS. Districts should have limited this access and granted users only
            the “REMIS user” privilege. The REMIS user privilege would have allowed
            individuals to view asset management screens without having the ability to update
            the records. Authorities at the 23 districts gave 104 individuals the ability to
            control all aspects of asset management by giving them the ability to update both
            CEFMS and REMIS. To ensure proper segregation of duties, districts must
            periodically review systems access to ensure that real estate personnel responsible
            for the accountability of structures are not granted asset manager authority in
            CEFMS. Likewise, the district should ensure that individuals who have been
            granted asset manager authority are granted view only access to REMIS.


Completeness of Buildings and Other Structures Accounts
            USACE did not take appropriate actions to ensure the completeness of the
            structures accounts as of the end of FY 2002. Procedures, such as performing
            periodic inventories and taking appropriate corrective actions as a result, and
            ensuring that cut-off dates are established had not been effectively implemented.
            The procedures should have also ensured that the structures were properly
            classified and recorded in CEFMS. To accurately report the value of structures in
            the financial statements, controls must be in place to ensure that all USACE
            structures have been placed in service by the close of each accounting period.
            Proper Inventory Procedures. Controls were not in place to ensure that the
            districts conducted inventories properly, or that discrepancies discovered during
            the inventories were resolved. Failure to account for all structures causes the
            General PP&E accounting line on the financial statements to be misstated.
            District personnel often failed to perform required inventories and correct
            discrepancies identified during physical inventories. We identified problems at
            selected field sites at each of the 23 district offices.6 Specifically:
                •   15 districts did not perform inventories on a 3-year cycle,

                •   8 districts did not correct discrepancies identified during physical
                    inventories,



6
    We identified more than one problem at some district offices



                                                      21
   •   12 districts did not implement procedures to ensure hand receipt holders
       performed inventories in intervening years, and

   •   2 districts did not assign individuals at each field site to serve as a hand
       receipt holder.

The inventories we performed at two lakes identified structures that had been
added, disposed of, or modified that were not identified to the district for
correction. Some of the inventory changes occurred more than 60 months before
our inventory. The St. Louis District had conducted an inventory at one of its
properties in 1999 but had failed to take the corrective actions more than 3 years
after the inventory. Additionally, not all of the districts were assigning
responsible employees as hand receipt holders at each of the district field sites.
For example, Rock Island District had never established hand receipts within
REMIS until the auditor’s visit, while Louisville District, Louisville, Kentucky,
assigned the same individual as hand receipt holder for all district property.
Consequently, the property managers did not convey responsibility and
accountability for the property under their control to field site property officers.

Property Identification. Structures were not routinely marked with a unique
structure number that could be used to facilitate physical inventories and
positively identify the asset. Although REMIS associated a unique structure
number to the individual property identification code, this number was not
routinely affixed to the buildings or structures for identification purposes at the
23 districts we visited. For example, at the Kansas City District, 10 country
kitchen picnic shelters were reported on the inventory at the Arrow Rock
recreation area. Seven of these shelters had been destroyed but as none of the
shelters were identifiable by property identification code or structure number we
could not determine which of the 10 shelters had been destroyed. Kansas City
District personnel informed us that, with the most recent inventory cycle, they
were obtaining Global Positioning Satellite readings for each property
identification code in order to tie an exact location to each building and other
structure. This is a good use of technology and provides an undisputed location
for each item inventoried. To ensure proper accountability, USACE should
establish and enforce a method of physically identifying each of its structures.

Testing for Completeness. To test the completeness of the structures accounts
and adequacy of districts’ inventory procedures, we selected structures located at
the 22 field sites visited and attempted to trace them back to CEFMS. We found
that 80 of the 266 items selected at 21 of the 22 field sites had not been recorded
in CEFMS. Our research on some of the items shows that they should have been
identified during either the 3-year or the annual inventory of the property.

Establishing a Transaction Cut-Off. Districts did not have procedures in place
to ensure that all transactions that affected the structures accounts were identified
and posted before the close of the fiscal year. We tested the completeness of the
building and other structures accounts by determining whether proper cut-off
procedures had been established to ensure all transactions that occurred during
FY 2002 were capitalized or retired by the end of the fiscal year. At the

                                     22
     23 districts we reviewed, we identified account changes that occurred from
     October 1 through November 12, 2002, that should have been reflected in
     financial records as of September 30, 2002. Of the 122 changes posted to
     structures accounts in the first 43 days of FY 2003, 90 actually occurred during
     FY 2002. As a result, USACE understated FY 2002 account balances by
     $2.0 million because districts failed to place in service about $3.2 million of
     structures and did not retire about $1.2 million of structures during FY 2002.
     USACE needs to establish a firm cut-off date for fiscal year transactions that will
     affect the fiscal year financial statements.


Resolving Asset Anomalies and Inconsistencies
     USACE district personnel did not take appropriate actions to ensure that the data
     recorded in CEFMS and REMIS were proper and consistent. Anomaly and other
     reconciliation reports need to be reviewed and irregular conditions researched and
     corrected timely to ensure that the proper balances are maintained.

     Resolving Asset Anomalies In CEFMS. District personnel did not regularly
     review CEFMS data to ensure that the data would be correctly recorded in
     accounting records. CEFMS produces an anomaly report that identifies
     conditions that are abnormal and require correction. We assessed the data
     reliability of the FY 2002 database by reviewing and analyzing anomalies in the
     recorded book costs and book values in CEFMS. We identified 761 property
     identification codes in the database that had one or more of the following
     anomalies:

        •   zero dollar book cost;

        •   no useful life;

        •   no book value reported, with remaining useful life on the asset;

        •   an irregular placed-in-service date;

        •   a useful life greater than 100 years; or

        •   an identical asset work item.

     We held detailed discussions with each of the 30 districts that reported anomalies
     to determine what corrective actions were needed to properly report the structures
     in CEFMS. District personnel indicated that the anomalies occurred for a variety
     of reasons including problems experienced during the conversion process from
     COEMIS to CEFMS, when depreciation was accelerated without correcting the
     useful life, and data entries and depreciation entries were made incorrectly. In
     most instances, the anomaly was identified in the districts’ anomaly reports but
     actions were not taken to correct the problems. The anomaly reports identified
     that some of the problems remained unresolved for more than 1 year. We
     requested that districts review each problem and take appropriate corrective
     actions. USACE adjusted the book value of affected structures by about


                                            23
     $22 million. The book value of structures reported on the FY 2002 financial
     statements was understated by a net amount of about $17.7 million.

     Resolving Anomalies Between CEFMS and REMIS. District personnel did not
     periodically review and take actions to resolve anomalies in the “REMIS Real
     Property Reconciliation (Property Not Placed-in-Service) Report.” The report
     identified property identification codes that were established in REMIS, but had
     not been placed in service in CEFMS. We reviewed these reports at 13 of the
     district offices visited. We found that often the reports identified structures that
     had not been placed in service, and no actions were underway to resolve these
     anomalies. For example, at the Tulsa District, the REMIS Real Property
     Reconciliation (Property Not Placed-in-Service) Report identified more than
     1,700 structures, valued at $845 million, that had not been placed in service in
     CEFMS. USACE district should periodically review the REMIS report and either
     place the assets in service, or document the reasons for not taking actions.


Classifying Buildings and Other Structures
     Districts were not consistent in how they established property identification codes
     for individual structures. Distinct variances existed in how the 23 districts we
     visited grouped structures when identifying individual property identification
     codes. While each building and other structure in one district was accounted for
     individually, other districts did not individually account for structures. Most
     often inconsistencies existed in how structures with lower dollar value were
     treated. Other districts grouped these types of structures together, combined them
     with other structures, or expensed them. However, we identified structures that
     should have had their own property identification code established. For example,
     Rock Island District personnel informed us that an ancillary dam structure was
     captured as part of the main dam at Saylorville Lake even though the second
     structure was geographically separated from the main structure and required its
     own operation and maintenance costs. Guidance did not clearly establish the
     circumstances under which an item should be captured as an individual property
     identification code, or when it should be combined with other structures as a part
     of a single property identification code. USACE should ensure that individual
     property identification codes are established for each separate building or other
     structure that is not physically or geographically connected to the main structure.
     The need for consistent treatment should become apparent after the capitalization
     threshold is raised to $25,000. Structures with lower dollar value will be removed
     from CEFMS, but similar types of structures that are grouped together will
     remain.

     USACE is in the process of updating Engineer Regulation 405-1-12. The
     amended regulation should include procedures on how to establish property
     identification codes for structures. USACE must also ensure that the regulation is
     consistently implemented.




                                         24
Summary
    USACE relies on CEFMS and REMIS to manage and financially report
    information on structures. USACE districts need to properly segregate the duties
    of personnel in the resource management and real estate offices. To ensure that
    the data recorded in financial systems is complete and accurate, USACE should
    also develop and enforce control procedures that ensure that district offices
    conduct, and follow up on the results of, physical inventories; establish cut-off
    procedures for fiscal year-end transactions; and resolve anomalies within and
    between systems. Once proper procedures and controls are identified, USACE
    needs to promptly update USACE regulations and provide detailed training to
    district and field personnel.


Recommendations and Management Comments
    C. We recommend that the Chief of Engineers, U.S. Army Corps of
    Engineers:

           1. Review access to the Corps of Engineers Financial Management
    System and Real Estate Management Information System granted to district
    personnel to ensure that proper segregation of duties is maintained over the
    control of buildings and other structures. Specifically, ensure that the access
    needed to perform:

                  a. Asset manager authority functions within the Corps of
    Engineers Financial Management System is restricted to those individuals
    required to update asset files. Provide individuals granted this authority
    with view only authority to the Real Estate Management Information
    System.

                  b. Asset accountability functions within the Real Estate
    Management Information System is restricted to those individuals required
    to account for buildings and other structures. Provide individuals granted
    update capability with view only access to the asset management screens
    within the Corps of Engineers Financial Management System.

    Management Comments. The Commander of USACE concurred and stated that
    the Real Estate Systems National Center staff and CEFMS technical staff will
    establish and implement processes to review access to CEFMS and REMIS.

           2. Enforce and monitor the 3-year inventory cycle for all U. S. Army
    Corps of Engineers buildings and other structures. Assign hand receipt
    holders for each individual field site to ensure accountability for individual
    buildings and other structures and inventories during the intervening years.

    Management Comments. The Commander of USACE concurred and stated that
    the interim update to Engineer Regulation 405-1-12 will require that the RPAO to
    designate a hand receipt holder for each piece of realty to ensure that each


                                        25
property is properly used, accounted for, and cared for. The RPAO will
physically inventory real property at least once every 3 years. The Commander
also stated that the Regional Business Centers will be given oversight
responsibility to enforce and monitor the 3-year real property inventory cycle.
During the intervening years, the responsible hand receipt holder will perform
annual reviews of the assets on the inventory list, update it accordingly, sign to
verify accuracy, and return the updated inventory list to the RPAO.

       3. Resolve problems identified during inventories conducted by the
real property office and hand receipt holders. Take prompt and appropriate
corrective actions.

Management Comments. The Commander of USACE concurred and stated that
the interim update to Engineer Regulation 405-1-12 will require that any
discrepancies relating to the physical inspection be resolved promptly. The
Regional Business Center will require the RPAO to conduct the required
inventory, and will require the district to provide an explanation for any
unresolved discrepancies.

       4. Develop a method to positively identify each building and other
structure.

Management Comments. The Commander of USACE concurred and stated that
the interim update to Engineer Regulation 405-1-12 will require that a structure
number be assigned to each item on the inventory in accordance with a standard
format. The property identification code established in REMIS and used in
CEFMS will be shown on the building or structure.

       5. Establish a fiscal year closeout process that will ensure that
transactions affecting buildings and other structures occur by the close of
each fiscal year.

Management Comments. The Commander of USACE concurred and stated that
USACE will develop an automated fiscal year closeout process that is practical
and possible with existing resource limitations to ensure that transactions occur in
the proper fiscal year.

       6. Develop and enforce standard procedures to ensure that all
buildings and other structures are properly recorded in the Corps of
Engineers Financial Management System. Reconcile and resolve anomalies
within and between the accounting and accountability systems.

Management Comments. The Commander of USACE concurred and stated that
three new REMIS to CEFMS reconciliation reports have been established to help
to ensure that all buildings and other structures are properly recorded in CEFMS.
After the monthly reviews of the reconciliation reports are completed, each
district will note the variances in each report, initiate appropriate corrective
actions, and ensure that the reason for the variance is documented.




                                     26
        7. Include in Engineer Regulation 405-1-12 procedures on how to
establish property identification codes for buildings and other structures
within the accounting system.

Management Comments. The Commander of USACE concurred and stated that
the interim update to Engineer Regulation 405-1-12 will require the RPAO to
assign a structure number to each item on the real property inventory in
accordance with a standard format. Locally developed numbering systems will
not be allowed.

      8. Provide training to all appropriate personnel on procedures
developed for improving controls over buildings and other structures.

Management Comments. The Commander of USACE concurred and stated that
when the interim update to Engineer Regulation 405-1-12 is issued, Regional
Business Centers will be directed to provide annual training to all appropriate
personnel on procedures developed for improving controls over buildings and
other structures.




                                  27
Appendix A. Scope and Methodology
   We selected a statistical sample from the 5,758 structures that experienced a
   change in book cost during the period from October 1, 1999, through
   September 30, 2002. We used the sample to evaluate the controls in place for
   placing structures in service, establishing their useful life, retiring them from
   service, and establishing and supporting their book cost. During the 3-year period
   ending September 30, 2002, USACE reported that the book costs of structures
   increased by $610.2 million. We reviewed a simple random sample of 80 of the
   5,758 property identification codes related to structures to determine whether
   adequate controls were in place and operating. The 80 sample items were located
   at 64 USACE field sites located within 23 USACE districts. We reviewed the
   internal controls in place at the 23 district offices and visited 22 field sites. While
   at the field sites, we performed a reverse inventory to determine whether the items
   were properly recorded in CEFMS. We performed this audit from January
   through October 2003 in accordance with generally accepted government auditing
   standards.

   We obtained from USACE the individual property identification codes that
   comprised the trial balance totals for general ledger account codes
   1730 (buildings) and 1740 (other structures) as of September 30, 1999, and
   September 30, 2002. While the year-end FY 1999 data reconciled, we determined
   that a variance totaling about $5.8 billion existed between what was reported in
   the trial balance and what was in the database of property identification codes.
   The reason for the difference was identified, and the variance was corrected in the
   FY 2003 database. We compared the amounts reported in general ledger account
   codes 1730 and 1740 as of September 30, 2002, with those reported as of
   September 30, 1999, and developed a population of 5,758 structures for which the
   book cost was changed in CEFMS during the period from October 1, 1999,
   through September 30, 2002. From this population we randomly selected
   80 property identification codes for review. From March through May 2003, we
   visited or requested data from 23 USACE districts to assess the controls they used
   to place in service and establish the useful life and value of an asset, or to retire an
   asset from service. We reviewed the Engineer Form 3013 and associated
   supporting documentation for accuracy and propriety. We compared what was
   recorded in CEFMS to source documentation to determine whether the building
   or other structure:

       •   was placed in service at the correct date,

       •   had a useful life established in accordance with Engineer
           Regulation 37-2-10,

       •   was properly valued and had appropriate third party documentation to
           support the established book cost, or

       •   was properly retired from service.



                                         28
    We also reviewed guidance issued by USACE and its districts for placing assets
    in and removing assets from service. We held discussions with personnel at 23
    district offices to determine what control procedures were in place at each district.
    We also visited with site managers at 22 field locations to help us understand
    procedures and ascertain the physical existence of selected sample items. At the
    22 field sites, we also selected items physically located at the site and traced them
    back to CEFMS to ensure that the assets had been placed in service.

    Use of Computer-Processed Data. Although we relied on computer-processed
    data from CEFMS and REMIS, we did not evaluate the adequacy of the systems’
    general and application controls. Previous audits have identified general and
    application control weaknesses and questioned the reliability of the CEFMS data.
    We determined that access authority was not properly limited to prevent an
    individual from having total control over a transaction affecting structures. We
    were able to reconcile the USACE trial balances as of September 30, 1999, and
    September 30, 2002, for the structures accounts with subsidiary databases of
    property identification codes for the corresponding periods without material
    variance. We evaluated data reliability related to the sample items we reviewed
    by comparing information recorded in CEFMS with source documentation in
    USACE district and field offices.

    Use of Technical Assistance. We obtained assistance from the Quantitative
    Methods Division, in the Office of the Inspector General of the Department of
    Defense to determine a statistical sampling plan and calculate the statistical
    projections. See Appendix D for the statistical sampling methodology.

    General Accounting Office High-Risk Area. The GAO has identified several
    high-risk areas in DoD. The report provides coverage of the Defense Financial
    Management and Federal Real Property high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of USACE management controls over the financial reporting of
    structures. Specifically, we reviewed USACE controls over data gathering to
    provide a complete universe, and maintaining supporting documentation for
    structures. We reviewed the controls in place for placing assets in and removing
    assets from service on the proper date. We did not assess management’s
    self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for USACE as defined in DoD Instruction 5010.40, related to
    the financial reporting of structures. USACE management controls over the


                                         29
    financial reporting of structures do not ensure a complete universe was provided,
    proper placed-in-service and retirement dates were recorded in CEFMS, and
    useful life was established in accordance with Engineer Regulation 37-2-10.
    Controls also did not ensure that the proper book cost would be established,
    maintained, and supported by appropriate source documentation for the life of the
    asset. Recommendations in this report, if implemented, will correct the identified
    weaknesses and could result in reliable financial statement reporting for
    structures. A copy of the report will be provided to the senior official responsible
    for management controls in USACE.


Prior Coverage
    During the last 5 years, GAO, the Office of the Inspector General of the
    Department of Defense, and U.S. Army Audit Agency have issued several reports
    discussing the reporting of USACE Civil Works financial statements.
    Unrestricted GAO reports can be accessed over the Internet at www.gao.gov.
    Unrestricted Inspector General of the Department of Defense reports can be
    accessed at www.dodig.osd.mil/audit/reports. Unrestricted Army Audit Agency
    reports are accessed at www.aaa.army.mil/reports.html, which is accessible on the
    extranet to military domains and GAO only.




                                         30
Appendix B. Glossary
Accumulated Depreciation. The amount of depreciation expense that has been
added over a period of time, calculated from the placed-in-service date of the
asset.

Book (Acquisition) Cost. All amounts incurred to bring the asset to a form and
location suitable for its intended use. Examples include amounts paid to vendors,
transportation charges, and handling and storage costs.

Book Value. The book (acquisition) cost less accumulated depreciation charged
on the asset.

Capitalization Threshold. The dollar value at which costs incurred will be
added as capital expenditures to the Plant in Service accounts. All real property
above the threshold, with an inherent useful life of 2 or more years, is capitalized.

Found On Works. Assets that are discovered during physical inventories that
have not been placed in service. Districts are required to establish a fair market
value for these assets.

Feature. A group of assets grouped to facilitate accounting control.

Improvement. A change to an existing asset that results in an increase of
efficiency, durability, or capacity of the asset or a change in the asset’s useful life.

Placed-in-Service Date. The date that an asset is physically complete and
available for use. Assets are recognized when title passes to the acquiring entity
or when the asset is delivered to the entity or to an agent of the entity. It defines
the start of the capitalization and depreciation expense process.

Power Marketing Assets. Assets reported on the USACE financial statements
that are located at sites producing power under the supervision of the Federal
Energy Regulatory Commission.

Property Identification Code. A number that links REMIS with CEFMS. The
property identification code is generated by REMIS when information about a
new asset is entered and committed.

Property Phase. A stage in an asset’s life cycle. An asset can be transferred
from Construction-in-Progress to Plant in Service (S), Retirement (R), and to
Disposal (D) over the course of the asset’s life.

Straight Line. A method of depreciation that allocates the book cost of an asset
equally over the useful life period.

Useful Life. The estimated time period for an asset to provide its intended
service. The concept recognizes the deterioration of items as they age.




                                      31
Appendix C. Accounting Guidance for Real
            Property Assets
Accounting guidance for real property assets, including buildings and other
structures, is in SFFAS No. 6. DoD and USACE have issued additional guidance
to implement the requirements of SFFAS No. 6. This appendix identifies
guidance on capitalization thresholds, placing assets in service, valuing assets,
and retiring assets.

Statement of Federal Financial Accounting Standards. SFFAS No. 6,
“Accounting for Property, Plant, and Equipment,” June 1996, contains the
accounting standards for federally owned PP&E.

        Capitalization Thresholds. Instead of the Federal Accounting Standards
Advisory Board establishing a centralized capitalization threshold, each Federal
entity should establish a threshold.

        Placement in Service. Assets shall be recognized when title passes to the
acquiring entity or when the asset is delivered to the entity or to an agent of the
entity. In the case of constructed structures, the asset shall be recorded as
construction work in process until it is placed in service, at which time the
balance shall be transferred to General PP&E.

         Valuation. All General PP&E shall be recorded at cost. Cost shall
include all costs incurred to bring the PP&E asset to a form and location suitable
for its intended use including:

       •   amounts paid to vendors;

       •   transportation charges to the point of initial use;

       •   handling and storage costs;

       •   labor and other direct or indirect production costs (for structures
           produced or constructed);

       •   engineering, architectural, and other outside services for designs,
           plans, specifications, and surveys;

       •   acquisition and preparation costs of buildings and other facilities;

       •   appropriate share of the cost of the equipment and facilities used in
           construction work;

       •   fixed equipment and related installation costs required for activities in
           a building or facility;

       •   direct costs of inspection, supervision, and administration of
           construction contracts and construction work;



                                     32
       •   legal and recording fees and damage claims; and

       •   material amounts of interest costs paid.

         Retirement from Service. At the time of disposal, retirement, or removal
from service, PP&E shall be removed from the asset accounts along with any
associated accumulated depreciation. Any difference between the book value and
amounts realized should be recognized as a gain or a loss in the period that the
General PP&E is disposed of, retired, or removed from service. General PP&E
shall be removed from accounts along with associated accumulated depreciation,
if prior to disposal, retirement, or removal from service it no longer provides
service in the operations of the entity. This could be either because it has suffered
damage, becomes obsolete in advance of expectations, or is identified as excess.
It shall be recorded in an appropriate asset account at its expected net realizable
value.

DoD Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
Financial Management Regulation,” volume 4, “Accounting Policies and
Procedures,” chapter 6, “Property, Plant and Equipment,” August 2000, provides
the DoD accounting policies for PP&E. The regulation defines PP&E as a
tangible asset that has a useful life of two years or more, are not intended for sale,
are acquired or constructed with the intention of being used by the entity, and
have an initial acquisition cost or fair market value that equals or exceeds the
capitalization threshold.

       Capitalization Threshold. DoD Regulation 7000.14-R, volume 4,
chapter 6 establishes a capitalization threshold of $100,000 for both General and
Working Capital Funds. In addition, the regulation requires the cost of an
improvement be capitalized only when the cost of the improvement equals or
exceeds the DoD capitalization threshold.

        Placement in Service. Completed construction projects shall be
capitalized and recorded in the appropriate standard general ledger account and
real property accountability or management system upon placing the property in
service, regardless of whether a certificate of occupancy has been issued or
regardless of close-out of the construction contract(s) and issuance of final
payment to the contractor. For structures that were not constructed, but Found on
Works the guidance states that when the acquisition cost cannot be determined,
the estimated fair market value of buildings and the cost of placing such
structures in the form intended for use shall be recorded less any accumulated
depreciation or amortization which would have been taken had the asset been
recorded at the time it was acquired.

        Valuation. Documentation (original documents or hard and electronic
copies of original documentation) shall be maintained in a readily available
location, during the applicable retention period, to permit the validation of
information pertaining to the asset such as the acquisition cost, acquisition date,
cost of improvements, etc. Supporting documentation may include, but is not
limited to, purchase invoices, sales and procurement contracts, DD Form 1354,
“Transfer and Acceptance of Military Real Property,” Engineer Form 3013,
“Work Order/Completion Report,” construction contracts, work orders, and other



                                      33
such documentation generated independently of the entity in possession of the
property.

        Retirement From Service. Structures that have been identified for
permanent removal from service shall no longer be depreciated once the asset no
longer contributes to the operation of the entity. General PP&E structures that
have been temporarily removed from service or use with the expectation that such
structures eventually will be returned to service shall continue to be depreciated
during periods of non-use.

Corps Policy. USACE policy guidance, including Engineer Regulation 37-1-29,
“Financial Administration – Financial Management and Capital Investment,”
November 30, 2002; Engineer Regulation 37-2-10, “Financial
Administration-Accounting and Reporting, Civil Works Activities,” April 1,
1969; and Engineer Regulation 405-1-12, Real Estate Handbook, November 20,
1985, establish procedures for capturing, tracking, and maintaining USACE
structures. Engineer Regulation 37-1-29 establishes capitalization thresholds for
USACE PP&E. The regulation also states that capital structures that are acquired
will be recorded at full cost. The full cost includes payments to vendors and/or
contractors, shipping and/or delivery charges, handling and storage costs, labor
and other direct or indirect production costs including architectural and
engineering costs. Engineer Regulation 37-2-10 states that acquisitions will be
transferred to plant-in-service no later than the month succeeding receipt of the
receiving report. Transfer will not be delayed pending completion of the
Engineer Form 3013. Transfer may be delayed upon receipt of written
documentary request from the applicable operating manager justifying the delay.
Engineer Regulation 405-1-12 provides guidance on how districts should account
for PP&E.




                                    34
Appendix D. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the sampling plan was to determine whether
    controls were in place to properly record the placed-in-service date, useful life,
    book cost, and retirement date of structures in CEFMS.

    Universe Represented. USACE provided databases by property identification
    code representing the structures reported in CEFMS as of September 30, 1999,
    and September 30, 2002. By comparing these databases, auditors determined the
    additions, deletions, and modifications that were made to individual structures
    during FYs 2000 through 2002. The audit population was made up of
    5,758 property identification codes with a combined book (acquisition) cost of
    $8.7 billion.

    Sample Design. The sampling design used a simple random sample to determine
    whether controls were in place and operating. A total of 80 property
    identification codes was selected. The 36 structures that were added to CEFMS
    since September 30, 1999, were classified as additions. The 26 structures that
    were removed from CEFMS as of September 30, 2002, were classified as
    deletions. The 18 structures that were in CEFMS as of both September 30, 1999,
    and September 30, 2002, but had a change in book cost were classified as an
    addition or deletion depending on whether the book cost increased or decreased
    over that period. Fifty of the 80 sample items were determined to be additions
    and were tested for controls related to placement in service, useful life, and
    valuation. The remaining 30 sample items were determined to be deletions and
    were tested for controls related to retiring the assets from service.




                                        35
Sampling Results
    Table D identifies the statistical estimates of property identification codes that did
    not have proper controls in place and operating.

                         Table D. Failures of Internal Control

    Control Tested       Lower Bound          Point Estimate        Upper Bound

     Placed-in-service          2,679                3,239                3,799
        Date Errors

       Useful Life               393                  792                 1,190
         Errors

     Book Cost Errors           2,244                2,807                3,370

     Retirement Date            1,475                2,015                2,555
          Errors

      One or More of            5,204                5,470                5,736
     the Above Errors



    Overall, we are 90 percent confident that between 5,204 and 5,736 buildings and
    structures had inadequate controls in place to ensure that the data recorded in
    CEFMS were accurate. Specifically, we are 90 percent confident that USACE
    failed to properly support:

        •   the placed-in-service dates recorded in CEFMS for between 2,679 and
            3,799 structures,

        •   the useful life recorded in CEFMS for between 393 and 1,190 structures,

        •   the book cost recorded in CEFMS for between 2,244 and 3,370 structures,
            and

        •   the retirement date recorded in CEFMS for between 1,475 and
            2,555 structures




                                         36
Appendix E. Buildings and Other Structures
            Cycle
     Accounting applications that process a related group of transactions and accounts
     comprise cycles. A cycle should be considered significant if it processes an
     amount of transactions in excess of design materiality or if it supports a
     significant account balance in the financial statements. The USACE Civil Works
     FY 2002 Financial Statements reported that the net book value of structures was
     $18.0 billion. The structures cycle begins with placing the asset in service and
     ends when the asset is retired from service. During the cycle, the assets are
     inventoried and maintained. While the exact flow and methods of communication
     between parties varies from one district to the next, the necessary steps are
     essentially the same.


Placement in Service
     Background. Projects are funded by amounts received from appropriations
     approved by Congress and established in funded asset work items (or acquiring
     work items) in CEFMS. An initial Engineer Form 3013 serves as the work order
     to begin a project and the final Engineer Form 3013 serves as the completion
     report. Asset work items are linked with the parent project work item in CEFMS
     and REMIS via the property identification code.

     Work Completion. The project manager notifies the district resource
     management personnel that the asset is ready to be placed in service by
     submitting an Engineer Form 3013, or similar local variation of the document
     listing all work items applicable to the completed asset and the date when
     construction was complete. This date becomes the placed-in-service date for
     CEFMS. All signatures required on the Engineer Form 3013 should be present to
     document the placed-in-service date and authenticity of the document. All
     documentation supporting the cost of the asset must be maintained for 10 years
     after the disposal of the asset. The asset documentation file should be reviewed
     before the asset is placed in service to ensure that all costs are capitalized and
     supported. Placement in service should take place no later than the month
     succeeding receipt of the final receiving report. Asset cost should include all
     costs incurred to bring the asset to a form and location suitable for its intended
     use. The cost of General PP&E acquired through:

        •   Purchase should be acquisition cost, plus applicable ancillary costs.

        •   Construction should be costs of project design and actual construction
            such as labor, materials, and overhead.

        •   Donation should be its estimated fair value at the time acquired.

        •   Transfer from other Federal entities should be the cost recorded by the
            transferring entity for the PP&E net of accumulated depreciation or
            amortization.


                                         37
   •   Found on Works should be the estimated fair market value and the cost of
       placing such assets in the form intended for use less any accumulated
       depreciation or amortization which would have been taken had the asset
       been recorded at the time it was acquired.

Assigning the Property Identification Code. A property identification code is
required before the resource managers place the asset in service in CEFMS. Real
estate personnel create the property record in REMIS based on information
contained on the Engineer Form 3013. The asset work item field must be filled in
based upon the asset work item specified on the Engineer Form 3013. The hand
receipt holder, usually the property manager, is assigned to the asset in the
REMIS accountability screen. If a betterment is to be placed in service, there are
links from the main RD5 screen to the betterment screen via the “betterment” tab
at the top of the RD5 screen. The betterment screen pulls all information in from
the RD5 screen, with the exception of the work item (acquired from Engineer
Form 3013), description (made up by the employee entering the information), cost
(from CEFMS), and constructed date (from Engineer Form 3013). The property
identification code links the betterment records to the original record. A unique
structure number is assigned to every structure. If the asset has been constructed,
the structure number will be determined at the beginning of the project.

Placement in Service in CEFMS. Resource management personnel place the
asset into service in CEFMS. They enter the placed-in-service screen in CEFMS
through either the appropriate civil or revolving fund menus. To place additions
in service, they select the property identification code from a list of all property
identification codes waiting to be placed in service from REMIS. If the
origination of the asset work item is in CEFMS via construction-in-progress, the
only field populated manually is the useful life. There is a screen in CEFMS that
personnel may check to ensure that the useful life falls within minimum and
maximum guidelines. The cost of a constructed asset is accumulated in the
construction-in-progress account (general ledger account code 1720). The
balance in the construction-in-progress account at the time the asset is placed in
service becomes the asset’s book cost and is automatically transferred into either
general ledger account code 1730.10 (buildings) or general ledger account code
1740.10 (other structures) based on property category code (05 for buildings, 10
for other structures). Once the asset is placed in service, CEFMS will populate
the book cost field in REMIS, because that information is located in CEFMS.

Because assets are placed in service when they are physically complete as
opposed to financially complete, the actual book cost of the asset may change
after it is placed in service if any additional costs are added and capitalized
afterward. If any additional costs are incurred on the project after it is placed in
service, a “CRON job” (DISTCOST program) is run nightly to pick these up and
add them to the capitalized book cost. These “extra” costs are allocated to the
correct project because they are associated with the project by the asset work item
number. CEFMS automatically re-calculates and updates book cost and
depreciation. When an asset is placed in service, CEFMS allows the user to enter
an acquisition date (or completion date) different from the date the transaction is
processed. The correct completion date should be recorded on the Engineer Form
3013 and entered into CEFMS as the asset’s placed-in-service date.




                                     38
    Transfer-in, Donation, or Found on Works. When an asset is acquired through
    transfer-in, donation, or found on works, the asset is generally placed in service in
    the same manner as in acquisition/construction. A report of survey should be
    completed to determine the value of the asset if it is donated or found on works.
    The field must send the paperwork to the district, where the real estate personnel
    will create a property record and establish the property identification code. An
    asset work item must then be created in CEFMS. The asset can then be placed in
    service in CEFMS.

    Improvements. Improvements that either extend the useful life of an asset or
    enlarge or improve its capacity, size, or efficiency, shall be capitalized. Engineer
    Regulation 37-1-29 states that if the total cost of an improvement is equal to or
    greater than 35 percent of the estimated replacement cost of an item, then the
    remaining book value and the cost of the improvement will be added together to
    determine a new acquisition cost, a new useful life, depreciation, and new date of
    acquisition.


Asset Management
    Physical Inventory. USACE is required to perform a physical inventory of real
    property at least once every 3 years and when there is a change of RPAO.

    Review Performed. The RPAO runs either the REMIS report (inv_hand_lrp),
    which is the real property inventory report listing by hand receipt holder with
    property identification code, or the REMIS report (inv), which is the inventory
    report by project. The RPAO is responsible for keeping track of the schedule of
    due dates for property inventories. The RPAO, or their designated representative,
    physically examines the asset and notes any abnormalities that need to be
    corrected in the asset’s file.

    Asset Updates. The results of the inventory must be reconciled with the
    accounting records. After determining the appropriate solution to problems
    identified during performance of the inventory, district personnel make the
    necessary corrections to the asset records in REMIS and/or financial records in
    CEFMS.


Retirement
    General PP&E assets that have been identified for permanent removal from
    service shall no longer be depreciated once the asset no longer contributes to the
    operation of the entity. This is accomplished by placing the asset in a retirement
    status (that is, the assets awaiting disposal account).




                                         39
Request Authorization to Dispose. Buildings and improvements may be
declared excess when, among other things:

   •   they have no current use,

   •   they have deteriorated or been damaged to the point of being nuisances or
       hazards to life and property and cannot be repaired or maintained at
       justifiable cost, or

   •   they have served the purpose for which they were constructed and cannot
       be economically or practicably adapted to other beneficial use.

When it has been determined that an asset is no longer fit to serve its intended
purpose, field personnel should submit a written request for approval of disposal
to the district Real Estate office. DA Form 337, “Request for Approval of
Disposal of Buildings and Improvements,” may be used; however, there is no
specific form required by the Corps for request of disposal. The date that the
asset was identified as excess is the date the District Commander or Chief of Real
Estate gave his approval to dispose of the asset. This date should become the
asset’s retirement date. The District Commander or Chief of Real Estate, not the
field personnel, are directly accountable for the property and must make the
official decision upon a finding in writing to identify the property as excess to the
district. The finding will be prepared as a separate document and will be
sufficiently complete within itself to justify the decision to donate, abandon, or
destroy the property proposed, without outside reference. Real property that
becomes excess to the needs of the Corps will be screened against requirements of
other DoD agencies and the U.S. Coast Guard to promote and obtain the most
efficient and complete use of real property before disposing of it. The McKinney
Homeless Assistance Act requires Federal agencies to identify to Housing and
Urban Development all real property that is underutilized or excess, and a
determination is required before any disposal action. There are also certain
environmental and historical clearances necessary before disposal, a priority of
eligible buyers, and sales procedures and the appraisal of buildings and other
improvements prior to sale.

Asset Retirement. Once approval for disposal has been granted, a copy of the
signed memo is sent back to the field to take disposal action. Another copy
should be forwarded to the resource management office, which will transfer the
asset from its in-service account to a retirement account in CEFMS by changing
the property phase code from in-service (“S”) to retired (“R”). The asset’s book
cost and accumulated depreciation are then automatically moved from general
ledger account codes 1730.10 (buildings) or 1740.10 (other structures) and
1739.00 (accumulated depreciation on buildings), or 1749.00 (accumulated
depreciation on other structures), to the retirement “assets awaiting disposal”
accounts using general ledger accounts codes 1990.93 (buildings) and 1990.94
(other structures). This transaction automatically stops further depreciation of the
asset. The asset remains in this account until physical disposal takes place.




                                     40
Appendix F. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Chief of Engineers, U.S. Army Corps of Engineers
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          41
U.S. Army Corps of Engineers Comments




                     43
44
45
46
     Final
     Report
     Reference




     Also on
     page 27




47
48
49
50
51
Team Members
The Defense Financial Auditing Service, Office of the Deputy Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Paul J Granetto
Barbara A. Sauls
David F. Vincent
Dennis L. Conway
George C. DeBlois
John K. Issel
Michael Perkins
Carmelo G. Ventimiglia
Walter J. Carney
Carolyn J. Davis
John P. Frawley
Cheri D. Givan
Bradley D. Grubb
Terry D. Holdren
Trisha L. Kaseler
Sean J. Keaney
Clarence E. Knight
Patrice L. Lindsey
Jeffrey D. Marshall
Chelsea D. Pickens
Ryan W. Pusey
Vivien Seumsouk
Eric T. Thacker
Kenneth Weron
Margaret R. Westfall
William H. Zeh
Brian L. Zimmerman
Frank C. Sonsini
H. David Barton
